Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives



For Release on Delivery
Expected at               FAA’s Implementation of
                          the FAA Modernization
10:00 a.m. EST
Wednesday
February 5, 2014
CC-2014-010
                          and Reform Act of 2012
                          Remains Incomplete

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

Thank you for inviting me to testify on the Federal Aviation Administration’s (FAA)
progress in implementing key provisions of the FAA Modernization and Reform Act of
2012, which was signed into law on February 14, 2012. This legislation provided FAA
with a stable 4-year authorization that included policy direction and guidance for the
Agency to safely operate the National Airspace System (NAS). The act also includes
several key provisions intended to help FAA better manage its Next Generation Air
Transportation System (NextGen) and other modernization efforts, integrate new
technologies, and improve its operations and oversight responsibilities.

Our past and ongoing work has examined FAA’s implementation of various provisions of
the act and corresponding programs. My testimony today is based on this work and will
focus on FAA’s progress and challenges in meeting three key areas of the act:
(1) implementing NextGen and other modernization provisions, (2) safely integrating
unmanned aircraft systems (UAS) 1 into the NAS, and (3) effectively utilizing two safety
workforces—controllers and inspectors.

IN SUMMARY
FAA has made progress implementing provisions of the act, but significant actions are
needed to meet the intent of the act and improve the execution and management of its
programs. Notably, FAA has met about half of the act’s NextGen and modernization
provisions, including appointing a Chief NextGen Officer. However, it has yet to meet
provisions intended to expedite a key element of the Automatic Dependent Surveillance
Broadcast (ADS-B) program—the core for shifting from today’s ground-based radar to
NextGen’s satellite-based systems. Underlying programmatic and organizational
challenges that we have previously reported continue to impact FAA’s ability to deliver
NextGen capabilities as originally planned. While FAA has made progress meeting the
act’s UAS provisions, it has determined that it will not meet the September 2015 deadline
for UAS integration due to a series of complex technological, regulatory, and managerial
barriers. Finally, FAA has not effectively maximized use of key segments of its safety
workforce. For example, FAA does not have an effective model for determining the
number of inspectors it needs and where to place them. Further, the Agency has not
developed metrics to determine whether its new controller scheduling policies will reduce
controller fatigue.




1
 UAS consists of aircraft systems and ground control stations where operators control the movements of aircraft remotely.
Unmanned aircraft serve diverse purposes, such as enhancing border security and aiding law enforcement.


                                                                                                                            1
FAA HAS IMPLEMENTED HALF OF THE ACT’S NEXTGEN AND
MODERNIZATION PROVISIONS, BUT KEY ACTIONS REMAIN
As we reported in September 2013, 2 FAA has made progress implementing the NextGen
provisions of the act, but it remains behind in its efforts to implement key provisions.
(See attachment 1 for a description of the provisions and their implementation status.) As
of January 2014, FAA had implemented or was on target to implement 12 of 24
NextGen-related provisions—including 3 key provisions intended to advance new air
traffic procedures and technologies and increase accountability. Specifically:

• In May 2012, FAA established a program that uses third parties to develop and test
  advanced navigation procedures at five mid-sized airports.

• In October 2012, the Agency completed a multi-agency NextGen Integrated Work
  Plan that defines the responsibilities of partner agencies—such as the Department of
  Defense (DoD) and the National Aeronautics and Space Administration (NASA)—for
  conducting NextGen-related research.

• In June 2013, FAA filled a key leadership position by appointing a Deputy
  Administrator who will also serve as the Chief NextGen Officer. The Deputy
  Administrator will oversee FAA’s NextGen modernization efforts, including
  coordinating the budgetary and planning aspects of the effort across the Agency’s
  lines of business and with partner agencies. 3

Despite this progress, FAA has not implemented key provisions of the act that are
intended to accelerate NextGen technologies and achieve the full range of NextGen
benefits. Most notably, FAA has not carried out important provisions related to
accelerating ADS-B—the foundation for shifting from today’s ground-based radar to
NextGen’s satellite-based systems. Although FAA has mandated that all airspace users
purchase and install ADS-B Out—avionics for broadcasting flight information to
controllers and FAA ground systems—it has not issued a mandate for ADS-B In, which
enables the display of the broadcast information in the cockpit.

The act directed FAA to begin a rulemaking process for ADS-B In, with the goal of
mandating the new technology by 2020 for aircraft operating in capacity-constrained
airspace. However, the technical requirements for ADS-B In continue to evolve and,
therefore, it is uncertain when the technology can be implemented. For example, a report
by an aviation rulemaking committee cautioned that the air-to-air applications for

2
  Letter Regarding FAA’s Progress in Meeting NextGen Provisions of the FAA Modernization and Reform Act of 2012 (OIG
Project No. CC-2012-003), Sept. 17, 2013.
3
  Recognizing the need to better position the Agency to execute NextGen, FAA announced a major reorganization in 2011.
Specifically, FAA appointed an Assistant Administrator for NextGen, who reports directly to the FAA Deputy Administrator,
and established a new Program Management Office.


                                                                                                                       2
ADS-B In were not mature and that the costs and benefits were uncertain. The report also
stated that FAA lacks well-defined policy, equipment standards, certification and
operational approval guidance, procedures, and ground automation—all prerequisites for
a successful rulemaking effort. As a result, FAA will not be in position to mandate
ADS-B In for several years.

While FAA is exploring options for NextGen rulemaking initiatives, the Agency has
taken some near-term actions to advance ADS-B. For example, FAA has entered into
partnerships with several U.S. airlines to develop and demonstrate ADS-B In applications
and procedures. As part of these agreements, FAA is providing funding for airlines to
purchase ADS-B equipment. For example, US Airways plans to install ADS-B systems in
20 Airbus A330 aircraft to assess the use of cockpit displays in maintaining proper
spacing between aircraft on arrivals. However, FAA does not expect all elements of the
demonstrations to be completed until 2017.

As we testified in July 2013, 4 FAA’s progress with delivering planned NextGen
capabilities has not met Congress’ or industry stakeholders’ expectations due to a number
of underlying causes. FAA’s NextGen plans—which initially estimated completion by
2025 at a cost of $40 billion—lacked sound strategies for implementing a system that
could handle three times more traffic while reducing FAA’s operating costs. As a result,
FAA has been unable to set realistic plans, budgets, and expectations for key NextGen
programs. Moreover, FAA’s organizational culture—which is highly operational, tactical,
and safety-oriented—has been slow to embrace NextGen’s transformational vision. Gaps
in leadership have further undermined the Agency’s efforts to advance NextGen. These
weaknesses have contributed to stakeholders’ skepticism about NextGen’s feasibility and
reluctance to invest—particularly in efforts that require airspace users to purchase and
install costly equipment in their aircraft.

The extent to which FAA realigns and consolidates the Nation’s air traffic control
facilities will be another important component of the Agency’s NextGen efforts. To
comply with Section 804 of the act, FAA provided Congress with a plan for
consolidating and realigning its air traffic facilities. The plan, developed collaboratively
with the National Air Traffic Controller Association (NATCA) and Professional Aviation
Safety Specialists (PASS), establishes a new process for evaluating realignments of its
terminal radar control facilities (TRACON). However, this plan is significantly less
comprehensive than previous consolidation plans we reviewed in 2012. 5 The plan also
does not include a process for realigning and consolidating facilities that manage high-
altitude traffic. 6 As FAA moves forward, it will be important for the Agency to establish

4
  FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation System (OIG Testimony No. CC-2013-
028), July 17, 2013.
5
  The Success of FAA’s Long-Term Plan for Air Traffic Facility Realignments and Consolidations Depends on Addressing Key
Technical, Financial, and Workforce Challenges (OIG Report No. AV-2012-151), July 17, 2012.
6
  En route centers guide airplanes flying at high altitudes through large sections of airspace.


                                                                                                                           3
sound metrics to determine whether facility realignments and consolidations will result in
measurable cost savings, operational efficiencies, and productivity enhancements.

FAA’S EFFORTS TO SAFELY INTEGRATE UAS INTO THE NATIONAL
AIRSPACE SYSTEM HAVE BEEN DELAYED
FAA has made recent progress in meeting the act’s 17 UAS provisions. However, the
Agency faces significant technological, regulatory, and managerial obstacles in its efforts
to address UAS-related safety risks and successfully integrate UAS into the NAS. These
include longer term challenges with developing adequate UAS technology and
establishing certification standards and regulations, as well as near-term air traffic control
and oversight issues.

Despite Recent Progress, FAA Is Behind in Meeting Statutory Milestones
for UAS Integration
FAA has completed 8 of the act’s 17 UAS provisions, such as publishing its 5-year UAS
Roadmap, 7 establishing a comprehensive plan to safely accelerate UAS integration and
streamlining its certificate of authorization (COA) processes (see table 1). However, the
Agency missed statutory milestones for most of these provisions. For example, FAA
recently announced its selection of six UAS test ranges—over a year after the statutory
milestone.

Table 1. Completed UAS Initiatives as of January 2014
    Initiative                                                                              Date Due Date Completed
    Establish agreements to streamline the COA process                                        5/14/2012      3/4/2013
    Establish a program for integrating UAS into the NAS at six test ranges                   8/12/2012    12/30/2013
    Develop a plan for small UAS to operate in the Arctic for research and commercial
                                                                                              8/12/2012     11/1/2012
    purposes
    Determine if certain UAS may operate safely in the NAS before completion of the
                                                                                              8/12/2012     7/19/2013
    comprehensive plan and rulemaking
    Issue guidance regarding the operation of public-use UAS, including expediting the
                                                                                            11/10/2012      1/22/2013
    UAS approval process
    Develop a comprehensive plan to safely accelerate the integration of UAS into the
                                                                                            11/10/2012     Sept. 2013
    NAS
    Submit a copy of the comprehensive plan to Congress                                       2/14/2013     11/6/2013
    Develop and make publically available a 5-year roadmap for the introduction of
                                                                                              2/14/2013     11/7/2013
    UAS into the NAS
Note: For full status information on these and other initiatives, see attachment 2.
Source: OIG



7
    The Roadmap is a guide outlining FAA’s plans for integrating UAS into the NAS over a 5-year period.


                                                                                                                    4
FAA is also behind schedule in implementing the remaining nine UAS provisions. For
example, FAA is a year late in implementing a provision to make the first UAS test range
operational. In addition, FAA officials stated that the Agency will not meet the act’s
August 2014 milestone for issuing a final rule on small UAS operations. 8

Further, Agency officials stated that FAA will not meet Congress’ September 2015
milestone for safe integration of UAS but will complete some parts of integration—most
likely for small UAS. FAA’s 5-year UAS Roadmap contains target dates for the
Agency’s future integration efforts, but FAA officials stated that the target dates do not
represent “commitments.” As a result, it remains unclear when FAA will complete UAS
integration.

Technological, Regulatory, and Managerial Barriers Limit Progress Toward
Full UAS Integration
FAA faces significant challenges in fully integrating UAS, including resolving
technological barriers to mitigate UAS safety risks, reaching consensus on critical UAS
regulatory standards, and addressing managerial barriers that limit UAS operations.

Successfully mitigating UAS safety risks depends on FAA’s ability to overcome two
significant technological barriers: (1) the lack of a mature detect-and-avoid technology to
avoid collisions and (2) inadequate control and communications technology, which
allows a ground control station and unmanned aircraft to interact.

• Lack of mature detect-and-avoid 9 technology. Because there are no pilots on board,
  UAS cannot comply with FAA requirements for aircraft to be able to “see and avoid”
  other aircraft. Therefore, the safe operation of UAS relies on effective, robust
  technology to automatically detect other aircraft operating in nearby airspace and
  successfully maneuver to avoid them. Experts we interviewed said detect and avoid is
  the most pressing technical challenge to integration yet to be mitigated.

• Lack of adequate control and communications technology. The integrity, stability,
  and security of the link between the ground control station and unmanned aircraft are
  vital to safe UAS operation. However, adequate technology to reduce the potential for
  “lost link” scenarios (interruptions or losses of connectivity) does not yet exist. Secure
  and adequate radio frequencies for communication will also be necessary to ensure
  sufficient links. While the International Telecommunication Union 10 granted some
  UAS-specific radio frequency in 2012, many unknowns remain—particularly

8
  The rule is intended to establish operating and performance criteria for small UAS (under 55 pounds) in the NAS that are
operated within line-of-sight of a pilot or ground observer below 400 feet.
9
  While FAA 14 CFR 91.113 speaks of a pilot’s ability to “see and avoid” other aircraft, the UAS community, spearheaded by
RTCA SC-228, is using the term “detect and avoid” to describe the desired capability of UAS.
10
   The International Telecommunication Union is the United Nations’ specialized agency for information and communication
technologies. It allocates global radio spectrum.


                                                                                                                             5
     regarding the amount of frequency spectrum needed, licensing issues, control and
     communications standards, and security vulnerabilities.

To address these technological barriers, several research projects are under way at FAA
and other agencies, such as DoD and NASA. For example, FAA plans to complete testing
of communications between ground operators and unmanned aircraft in fiscal year 2015,
and DoD is testing a ground-based detect-and-avoid system. However, it remains
uncertain when these efforts will provide UAS technology to fully support safe UAS
integration.

FAA also has yet to establish minimum regulatory standards for UAS. Specifically, the
Agency lacks (1) minimum performance standards for civil UAS and (2) regulatory
requirements or standards for UAS design certification, pilot and crew 11 qualifications,
ground control stations, and command and control reliability.

• Lack of minimum performance standards for civil UAS. 12 Despite working with a
  special RTCA advisory committee 13 for over 9 years, FAA has not reached consensus
  among Government and industry stakeholders on minimum performance standards. In
  March 2013, FAA tasked RTCA to form a new committee with a much narrower
  focus to help accelerate this effort. 14

• Lack of regulatory requirements or standards for UAS design certification, pilot
  and crew qualifications, ground control stations, and command and control
  reliability. FAA has not established design certification standards needed to certify
  new civil UAS. According to FAA officials, the Agency’s civil UAS certification
  projects have resulted in the certification of two aircraft. However, the projects rely
  on a military certification rule that does not apply to new types of UAS, and the two
  aircraft are restricted to operations over water in the Arctic area. FAA officials told us
  they are evaluating lessons learned to develop standards for widespread use. Table 2
  lists some other UAS operations areas needing safety regulations, standards, and
  guidance. Without such a regulatory framework to mitigate safety concerns, UAS will
  continue to operate in the NAS with significant limitations.




11
   Crew, in addition to the pilot, can include ground-based crew, who must assist the pilot with determining UAS proximity to
other aviation activities and help the pilot avoid operating beyond the visual line-of-sight limit.
12
   Private or commercial use.
13
   Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc. is a private, not-for-profit corporation that
develops consensus-based recommendations regarding communications, navigation, surveillance, and air traffic management
system issues. It functions as a Federal Advisory Committee.
14
   RTCA established Special Committee 228, which is focused on more detailed standards regarding detect-and-avoid capabilities
and command and control links.


                                                                                                                              6
Table 2. Sample of UAS Operations Areas Needing Aviation Safety
Regulations, Standards, and Guidance

 Unmanned Aircraft       Pilot and Crew        Control Station         Data Link
 • Policy                • Policy              • Policy                • Policy
 • Certification         • Certification       • Certification         • Certification
   Requirements            Requirements          Requirements            Requirements
 • Technical Standards   • Operational         • Technical Standards   • Technical Standards
                           Standards
 • Performance                                 • Airworthiness         • Airworthiness
   Standards             • Procedures            Standards               Standards
 • Airworthiness         • Regulations         • Interoperability      • Interoperability
   Standards                                     Requirements            Requirements
                         • Guidance Material
 • Procedures                                  • Guidance Material     • Dedicated Aviation
                         • Training                                      Radio Frequency
 • Regulations/            Requirements        • Maintenance             Spectrum
   Guidance                                      Requirements
                         • Medical Standards                           • Standardized Control
 • Measures of                                 • Means of                Architectures
   Performance                                   Compliance
                                                                       • Link Security
 • Maintenance                                                           Requirements
   Requirements

Source: OIG analysis of FAA data

Although some UAS operate in the NAS today under FAA’s case-by-case authorizations,
their safe integration into the NAS has been impacted by various managerial barriers
including (1) a lack of national UAS-specific air traffic controller procedures and
training, (2) organizational barriers that impede FAA’s progress in integrating and
overseeing UAS operations, and (3) an inadequate framework for sharing and analyzing
safety data.

• Lack of standardized UAS-specific air traffic controller procedures and training.
  Although FAA provided interim guidance on UAS-specific air traffic control, it has
  not established national procedures and training, which limits controllers’ ability to
  manage air traffic that includes unmanned aircraft. Currently, air traffic controllers are
  forced to segregate UAS from other traffic rather than integrate them into normal
  traffic flow. According to air traffic personnel, current procedures and separation
  standards, designed for manned aircraft, are not adequate for UAS. For example,
  controllers told us that the En Route Automation Modernization system, a system for
  processing high-altitude flight data, cannot adequately manage UAS flight plans,
  which contain an unusually large amount of navigational data. In addition, due to the
  lack of training and guidance, controllers at air traffic facilities nationwide have filed




                                                                                                7
     reports of problems managing UAS operations. 15 FAA established a corrective action
     plan in January 2013 but does not expect to resolve these issues until September 2015.

• Organizational barriers impeding FAA’s progress in integrating and overseeing
  UAS operations. Integrating UAS operations into the NAS presents significant
  organizational challenges, as it requires the collaboration of many stakeholders. In
  February 2012, FAA established a new UAS Integration Office, which combines
  Flight Standards and Air Traffic Organization (ATO) personnel and consolidates UAS
  expertise into a single organization. However, the office is not fully staffed and will
  have to reach out to FAA lines of business and offices beyond ATO, such as the
  Aircraft Certification and NextGen organizations. FAA has had difficulty working
  across lines of business in the past. Other organizational barriers limit FAA’s
  oversight of current UAS operators. For example, regional UAS safety inspectors
  receive work assignments from the UAS Integration Office but report to their regional
  managers, resulting in competing priorities.

• Inadequate framework for sharing and analyzing safety data. FAA routinely
  collects safety data from current public-use UAS operators (mainly from DoD), as
  required by the COAs granted to each operator. However, the Agency does not know
  whether it is receiving sufficient data from COA operators, as it has no process to
  ensure that all incidents are reported as required. In addition, FAA has not reached
  agreement with DoD to obtain useful data. For example, while FAA’s Office of
  Accident Investigation and Prevention receives annual UAS mishap data from DoD,
  FAA’s UAS integration staff told us they do not find these data useful because they
  lack detail. DoD has a wealth of other operational data, such as maintenance data, but
  the Agency has been unable to obtain the data due to concerns about data sensitivity
  and resource coordination. FAA and DoD have formed a data sharing team to resolve
  this issue.

We plan to issue a report later this year on FAA’s efforts to (1) develop standardized
training and procedures for air traffic controllers, (2) establish design and certification
standards for UAS technology, (3) enhance collection of UAS safety data, and
(4) establish well-defined metrics to assess progress toward safe integration.

FAA HAS NOT EFFECTIVELY MAXIMIZED USE OF KEY SEGMENTS
OF ITS SAFETY WORKFORCES
FAA has not fully resolved issues with the effective utilization and management of two
safety workforces. Specifically, FAA does not have an effective model for determining
the correct number and placement of inspectors, and the Agency has not developed

15
  Controllers file these reports through FAA’s Air Traffic Safety Action Program, a voluntary safety reporting program that
enables air traffic personnel to confidentially report air traffic safety events.


                                                                                                                              8
metrics to determine whether its new controller scheduling policies will reduce controller
fatigue.

FAA Has Not Developed a Reliable Model for Determining Its Safety
Inspector Workforce Needs
FAA currently employs approximately 4,000 flight standards safety inspectors who
oversee all facets of aviation safety, from general aviation to air carrier operations. The
act required FAA to implement a new staffing model for its inspector workforce to
address concerns raised in a 2006 congressionally mandated National Research Council
(NRC) study. 16 NRC concluded that FAA had an ineffective method for identifying how
many safety inspectors it needs and where they are most needed.

As we reported in June 2013, 17 FAA introduced the new staffing model in October 2009.
However, the Agency has not fully relied on the model’s results—in part because the
model’s data are incomplete, inaccurate, and outdated. On six occasions, FAA issued the
results of its staffing model, with each iteration showing widely differing nationwide
employee shortages (see figure 1).

Figure 1. FAA’s Model-Projected Safety Employee Shortfalls

                      1,000
                                                                                        935
                                                                          914
                       900


                       800
Number of Employees




                       700                                  646


                       600


                       500      463
                                                                                                        430
                                               389
                       400


                       300
                              April 2010   January 2011   July 2011   January 2012   August 2012   January 2013

Source: OIG analysis of FAA data


16
 NRC study, “Staffing Standards for Aviation Safety Inspectors,” Sept. 20, 2006.
17
 FAA Lacks a Reliable Model for Determining the Number of Flight Standards Safety Inspectors It Needs (OIG Report Number
AV-2013-099), June 20, 2013.


                                                                                                                       9
To help FAA address issues with its staffing model, we recommended that the Agency
(1) conduct a comprehensive assessment of the model, (2) assess the quality of the data
used in the model, and (3) develop a plan with milestones to address the model’s
shortcomings. In response, FAA obtained an independent review, issued in
September 2013, which confirmed our report findings and concluded that the staffing
model did not sufficiently address 16 of the 25 NRC recommendations. 18 For example,
the study confirmed that FAA had not conducted detailed cost analyses, defined
performance measures, or validated the model’s data. To address our remaining
recommendations, FAA stated that it will identify mitigating actions to address the
findings from the independent review and develop a plan with milestones to address the
model’s shortcomings by April 2014. We met with FAA officials in December 2013 to
determine the status of the Agency’s efforts and will continue to monitor FAA’s progress.

FAA Revised Some of Its Controller Scheduling Policies, but Weaknesses
Remain
Following a number of incidents of sleeping or unresponsive controllers in 2011, the act
required us to review FAA’s air traffic controller scheduling practices—particularly, the
impact of scheduling on controller fatigue, performance, and cost. In August 2013 19 we
reported that while FAA has revised some of its policies regarding controller scheduling,
weaknesses remain. Specifically:

• FAA lacks metrics to determine whether its new policies will reduce controller
  fatigue. FAA revised its controller scheduling policies to increase minimum rest
  periods between shifts, establish a fatigue risk management system, increase the
  number of controllers assigned to midnight shifts, and allow “recuperative breaks” on
  overnight shifts. However, it is unclear how these new policies impact fatigue because
  FAA does not have metrics to measure the effects of its scheduling practices. In
  addition, fatigue research, which is still ongoing, may prompt additional revisions to
  FAA’s scheduling practices.

• FAA has an opportunity to reduce costs related to its overnight operations. FAA
  records indicate that 72 facilities are staffed with a minimum of two controllers during
  the midnight shift—despite not having air traffic that requires continuous overnight
  operations. By reducing services at these facilities during the midnight shift, the
  Agency could reduce costs. In response to our recommendation, FAA plans to take
  some steps to address our concerns by September 30, 2014. Additionally, FAA plans
  to enhance cost efficiency by implementing its Operational Planning and Scheduling
  tool, a new system created to help managers design more efficient shift schedules.

18
   Office of Aviation Safety Staffing Tool and Reporting System (ASTARS) Gap Analysis Study, Comparison of the AVS
Staffing Model for Aviation Safety Inspectors to the National Academy of Sciences’ Recommendations, Sept. 20, 2013.
19
   FAA’s Controller Scheduling Practices Can Impact Human Fatigue, Controller Performance, and Agency Costs (OIG Report
Number AV-2013-120), Aug. 27, 2013.


                                                                                                                     10
• FAA has not ensured that controllers comply with minimum rest requirements
  between shifts. Our review found that a small percentage of controllers did not
  always comply with minimum rest requirements between shifts. The majority of these
  violations were less than 15 minutes in length. In response to our review, FAA
  committed to improving compliance with its policies and reducing the number of
  violations, such as conducting regular audits and implementing a new timekeeping
  system feature that will alert users to potential violations.

Our past and ongoing work shows that long-standing issues continue to impact FAA’s
efforts to improve the efficiency of the NAS and realize the safety, operational, and
economic benefits envisioned when Congress passed the FAA Modernization and
Reform Act 2 years ago. At the request of this Subcommittee, we are initiating a review
of FAA’s organizational structure, including an assessment of whether the Agency’s
previous structural and organizational reforms have improved its operational,
technological, and cost effectiveness. We will keep the Subcommittee apprised of our
work.

This concludes my prepared statement. I will be happy to answer any questions you or
the other Members of the Subcommittee may have.




                                                                                     11
ATTACHMENT 1. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S TITLE II PROVISIONS
(AS OF JANUARY 2014)

Section           Provision                     Description                                                        Deadline           Progress   Status


202               NextGen Demonstrations        Provide Facilities & Equipment funding priority to NextGen         None                          Met – FAA prioritizes demonstration projects and
                  and Concepts                  activities.                                                                                      developmental efforts in its annual budget request and
                                                                                                                                                 acquisition management processes.

204               Chief NextGen Officer         Administrator shall appoint a Chief NextGen Officer.               None                          Met – Michael Whitaker is the FAA Deputy Administrator and
                                                                                                                                                 also serves as the Chief NextGen Officer. Mr. Whitaker was
                                                                                                                                                 sworn into office on June 3, 2013.

208(a)(1)         NextGen Joint Planning and    Head of the JPDO to be redesignated as the Associate               None                          Not Fully Implemented – On August 22, 2013, Major General
                  Development Office (JPDO)     Administrator for NextGen Planning, Development, and                                             Edward Bolton (Ret.) was named the Associate Administrator
                  Associate Administrator       Interagency Coordination.                                                                        for NextGen. However, FAA has not yet redesignated the
                                                                                                                                                 Head of the JPDO as the Associate Administrator, and is in the
                                                                                                                                                 process of implementing the appropriations Direction to move
                                                                                                                                                 the JPDO to the NextGen and operations planning activity.

208(a)(3)(D)      NextGen JPDO (Interagency     Execute Memorandums of Understanding (MOU) with DoD,               8/14/12                       Met – Although the MOUs were signed in 2008, FAA stated—
                  MOUs)                         Commerce, Homeland Security, NASA, and other agencies                                            and we believe—that they meet the intent of the provision.
                                                documenting their responsibilities to carry out the NextGen
                                                Integrated Plan.

208(b)(5)         NextGen JPDO (Integrated      FAA shall complete a multi-agency integrated NextGen Work          None                          Met – FAA released the Fiscal Year 2015 Integrated Work
                  Work Plan)                    Plan that includes accomplishments and future costs.                                             Plan on October 1, 2012. However, it does not include
                                                                                                                                                 budgetary information as required by the Act.

208(c)            NextGen JPDO                  FAA Administrator shall publish and annually update a NextGen      2/14/13 and                   Implemented Late – FAA completed the NGIP in June 2013—
                  (Implementation Plan)         Implementation Plan (NGIP).                                        annually                      4 months after the due date. According to FAA, the NGIP was
                                                                                                                                                 originally scheduled for publication a month after the
                                                                                                                                                 President’s budget, but it was delayed due to sequestration.

209               NextGen Senior Policy         NextGen Senior Policy Committee meetings twice annually.           Report - 2/14/13              Missed Deadline – According to FAA, partner agencies cleared
                  Committee                     FAA shall complete a report that includes progress made in the     and annually                  the report, but it is still in administrative review.
                                                NextGen Work Plan, a description of success/failure, an            afterward
                                                explanation of future changes to the Plan, and an identification
                                                of funding.

      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed

                                                                                                                                                                                                      12
ATTACHMENT 1. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S TITLE II PROVISIONS
(AS OF JANUARY 2014)


Section         Provision                      Description                                                       Deadline          Progress   Status


211(b)          ADS-B (Rulemaking)             Initiate rulemaking to issue guidelines and regulations related   2/14/13                      Missed Deadline – According to FAA, it is working on an
                                               to ADS-B In technology (display of information in the cockpit).                                Aviation Rulemaking Committee recommendations related to
                                                                                                                                              this issue, and there is no specific target date for initiating
                                                                                                                                              rulemaking activities. We note that the technical requirements
                                                                                                                                              for ADS-B In are not mature and continue to evolve. As a
                                                                                                                                              result, it is uncertain when the advanced capabilities of ADS-B
                                                                                                                                              can be implemented and at what cost.

211(c)          ADS-B (Usage)                  FAA, in coordination with employee and industry groups, shall     8/14/13                      Missed Deadline – According to FAA, the plan is under internal
                                               develop a plan to use ADS-B for active air control and                                         review.
                                               surveillance.

212             Expert Review Enterprise       FAA shall enter into an agreement with the NRC to review          2/14/13                      Missed Deadline – FAA signed an agreement with the NRC
                Architecture for NextGen       NextGen Enterprise Architecture and submit a report to the                                     7 months after the act became law. The NRC’s schedule calls
                                               House and Senate authorizing Committees within 1 year of                                       for the report to be completed in March 2014.
                                               enactment.

213(a)(1)       Acceleration of NextGen        Publish a report that outlines implementation requirements        Report: 8/14/12              Report: Missed Deadline – According to FAA, a single report
                Technologies (OEP Airports)    needed to implement area navigation (RNAV) and required                                        for OEP and non-OEP airports is under FAA executive review.
                                               navigation performance (RNP) procedures at Operational
                                               Evolution Partnership (OEP) airports. Certify, publish, and       RNAV/RNP
                                               implement RNAV/RNP procedures at OEP airports by                  Procedure                    RNAV/RNP Procedure Implementation: Not Implemented –
                                               June 30, 2015.                                                    Implementation:              FAA is shifting away from publishing large numbers of routes to
                                                                                                                 30% by 8/14/13;              publishing fewer new routes that provide operational benefits.
                                                                                                                 60% by 2/14/15;              The realization of widespread benefits from the new
                                                                                                                 100% by 6/30/15              procedures depends on FAA’s ability to revamp the controller
                                                                                                                                              handbook and deploy new automated tools for controllers.



   - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
   - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
   - Provision Not Implemented and Statutory Deadline Missed




                                                                                                                                                                                                       13
ATTACHMENT 1. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S TITLE II PROVISIONS
(AS OF JANUARY 2014)

Section           Provision                      Description                                                      Deadline          Progress   Status

213(b)(1)         Acceleration of NextGen        Publish a report that outlines implementation requirements       Report: 8/14/12              Report: Missed Deadline – According to FAA, a single report
                  Technologies (Non-OEP          needed to implement RNP procedures at 35 non-OEP airports.                                    for OEP and Non-OEP airports is under FAA executive review.
                  Airports)                      Certify, publish, and implement RNP procedures at non-OEP
                                                 airports over 4 years, fully implementing them by                RNAV/RNP
                                                 June 30, 2016.                                                   Procedure                    RNAV/RNP Procedure Implementation: Not Implemented –
                                                                                                                  Implementation:              FAA is shifting away from publishing large numbers of routes to
                                                                                                                  25% by 8/14/13;              publishing fewer new routes that provide operational benefits.
                                                                                                                  50% by 2/14/15;              The realization of widespread benefits from the new
                                                                                                                  100% by 6/30/16              procedures depends on FAA’s ability to revamp the controller
                                                                                                                                               handbook and deploy new automated tools for controllers.

213(d)            Acceleration of NextGen        Submit a plan to the House and Senate authorizing                2/14/13                      Missed Deadline – According to FAA, it has drafted a plan that
                  Technologies (Data             Committees for a nationwide data communications system that                                   is undergoing internal review.
                  Communications System)         includes budget, schedule, and performance metrics.

213(e)            Acceleration of NextGen        In the NGIP, (1) determine if technology such as ADS-B and       None                         Met – The NGIP, published in June 2013, includes the required
                  Technologies (Improved         RNP will improve efficiency, and (2) safely reduce aircraft                                   language. While FAA states that it is evaluating reducing
                  Performance Standards)         separation standards (including a timetable describing reduced                                separation standards at congested airports, it is uncertain
                                                 standards in the NGIP).                                                                       when FAA will widely implement the new standards.

213(f)            Acceleration of NextGen        Establish a program that authorizes the use of qualified third   None                         Met – FAA awarded a contract in May 2012 for third-party
                  Technologies (Third-Party      parties in the development, testing, and maintenance of flight                                development or RNP procedures to five mid-sized airports.
                  Usage)                         procedures.

214               Performance Metrics            Establish and track detailed performance metrics at the          8/14/12                      Implemented Late – FAA delivered the metrics report to the
                                                 35 OEP airports. Submit a report to the House and Senate                                      House and Senate authorizing Committees on August 9, 2013.
                                                 describing the metrics.                                                                       It has also published the metrics on its Web site. However, the
                                                                                                                                               Agency has yet to complete metrics measuring airline fuel burn
                                                                                                                                               and the number of operations using advanced navigation
                                                                                                                                               procedures.

215               Certification Standards and    Develop a plan to accelerate and streamline the process for      8/14/12                      Missed Deadline – According to FAA, the draft plan is
                  Resources                      certifying NextGen technologies.                                                              undergoing internal review.


      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed



                                                                                                                                                                                                       14
ATTACHMENT 1. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S TITLE II PROVISIONS
(AS OF JANUARY 2014)

Section          Provision                      Description                                                        Deadline          Progress   Status

216              Surface System Acceleration    Evaluate and accelerate the Airport Surface Detection              ASDE-X                       ASD-X Implementation: Ongoing – FAA continues to explore
                                                Equipment Model X program (ASDE-X), the surveillance               Implementation:              enhancements to the ASDE-X program as part of its NextGen
                                                system that allows air traffic controllers to track aircraft and   (none)                       initiatives.
                                                vehicle surface movement. Develop a plan to expedite the
                                                certification and installation of Ground-Based Augmentation        GBAS Plan:                   GBAS Plan: Not Implemented – According to FAA, due to
                                                System (GBAS) technology at the 35 OEP airports.                   12/31/12                     issues in Newark, NJ, in 2012, the GBAS system was sent
                                                                                                                                                back to development for further research. The issues were
                                                                                                                                                resolved, and GBAS has been certified as a non-Federal
                                                                                                                                                acquisition system for airports. FAA states that it is working
                                                                                                                                                with industry on the plan required by the legislation.

217              Inclusion of Stakeholders in   Include qualified employees from each collective bargaining        2/14/13                      Missed Deadline – According to FAA, the process for including
                 Air Traffic Control            unit and report to the House and Senate authorizing                                             employees is in place, but the draft report is under review.
                 Modernization Projects         Committees on this section.

218              Airspace Redesign              FAA and the Port Authorities of New York/New Jersey/               12/1/17                      In Progress – The New York/New Jersey/Philadelphia Airspace
                                                Philadelphia monitor noise impacts of area Airspace Redesign.                                   Redesign is expected to be completed in December 2016, with
                                                No later than 1 year after completing redesign, submit a report                                 the report due in December 2017.
                                                on noise impacts.

220              NextGen Research and           FAA may enter into an agreement to assist in the                   None                         Met – Existing Centers of Excellence are conducting research
                 Development Center of          establishment of a Center of Excellence to research NextGen                                     and development.
                 Excellence                     technology.

221              Public-Private Partnerships    The DOT Secretary may establish an avionics equipage               None                         In Progress – In 2012, FAA obtained information from
                                                incentive program for general aviation and commercial aircraft                                  stakeholders regarding financial incentives for operators to
                                                to install equipment to utilize NextGen capabilities.                                           equip with NextGen avionics. FAA states that it lacks complete
                                                                                                                                                statutory authority to grant a loan guarantee and that Federal
                                                                                                                                                credit laws require agencies to obtain specific authority to
                                                                                                                                                guarantee loans in an appropriation act. FAA also stated that
                                                                                                                                                there has been one interested private partner that has
                                                                                                                                                submitted an application targeted to General Aviation. FAA is
                                                                                                                                                reviewing the application.

222              Operational Incentives         FAA shall issue a report that identifies incentive options to      8/14/12                      Implemented Late – According to FAA, the report was
                                                encourage operators to equip aircraft with NextGen                                              delivered to Congress in September 2013 – 13 months after
                                                technology.                                                                                     the due date.

225              Greener Skies Project          Report on NextGen capabilities produced by Greener Skies           Initial report               Implemented Late – Initial report was completed in March
                                                Project.                                                           8/14/12 and                  2013—7 months after the due date.
                                                                                                                   annually


      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
                                                                                                                                                                                                         15
      - Provision Not Implemented and Statutory Deadline Missed
ATTACHMENT 2. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S UAS PROVISIONS
(AS OF JANUARY 2014)

Section        Description                                               Deadline     Progress   Status


334c           Establish agreements to simplify process for issuing      5/14/2012               Met — FAA made changes to the COA process to shorten the timeframes needed for approval.
               COAs for public UAS in the NAS.
                                                                                                 Implemented Late – FAA completed a streamlined COA process via MOUs with DoD, NASA, and DOJ in
                                                                                                 March 2013.


332c(1)        Establish program for integrating UAS into the NAS at     8/12/2012               Implemented Late – On December 30, 2013, FAA announced the test-site applicants chosen for the six test
               six test ranges.                                                                  ranges.

332d           Develop plan to designate permanent areas in the Arctic   8/12/2012               Implemented Late – FAA’s Arctic Plan was signed on November 1, 2012, and was made available to the
               where small UAS may operate 24 hours/day for                                      public on FAA’s Web site on December 6, 2012.
               research and commercial purposes.

333            Determine if certain UAS may operate safely in the NAS    8/12/2012               Implemented Late – FAA issued type certificates (using the 21.25 restricted category certification) to
               before completion of the comprehensive plan and                                   ScanEagle and Puma UAS to operate in the Arctic in July 2013, stipulating that certain UAS could operate in
               rulemaking.                                                                       restricted areas of the NAS prior to the issuance of the comprehensive plan.

332a(1)        Develop a comprehensive plan to safely accelerate the     11/10/2012              Implemented Late – JPDO was assigned to develop the comprehensive plan. However, the document had to
               integration of UAS into the NAS.                                                  undergo substantial revisions during an interagency review process.

334a           Issue guidance regarding the operation of public-use      11/10/2012              Implemented Late – On January 22, 2013, the FAA issued notice N8900.207, which provides policies
               UAS including expediting the UAS approval process.                                necessary for reviewing and evaluating the safety and interoperability of proposed UAS flight operations in the
                                                                                                 NAS, and outlines best practices and procedures that FAA has used in prior UAS approvals.

332a(4)        Submit copy of comprehensive plan to Congress.            2/14/2013               Implemented Late – After an extended executive coordination and interagency review process, FAA submitted
                                                                                                 the plan on November 6, 2013.



  - Provision Implemented and Statutory Deadline Met

  - Provision Implemented but Missed Statutory Deadline
  - Provision Not Implemented and Statutory Deadline Missed




                                                                                                                                                                                                            16
ATTACHMENT 2. STATUS OF FAA’S IMPLEMENTATION OF THE ACT’S UAS PROVISIONS
(AS OF JANUARY 2014)

Section        Description                                                   Deadline     Progress   Status


332c(4)        Make operational at least one project at a test range.        2/14/2013               Missed Deadline – FAA announced the six test sites in December 2013. FAA officials stated that the first
                                                                                                     test site will not be operational until 6 months after that date.

332a(5)        Develop and make publically available 5-year roadmap for      2/14/2013               Implemented Late – OMB required FAA to make substantial revisions to its Roadmap, and the document
               the introduction of UAS into the NAS.                                                 underwent a Legislative Referral Memorandum process. FAA published the Roadmap on
                                                                                                     November 7, 2013.

332b(3)        Issue an update to the Administration’s policy statement on   8/14/2014               Deadline in future.
               UAS.

332b(1)        Issue the Final Rule on small UAS.                            8/14/2014               Deadline in future. FAA officials stated that the Agency will be unable to meet this deadline.


332b(2)        Issue a NPRM to implement recommendations of the              8/14/2014               Deadline in future.
               comprehensive plan.


332a(3)        The safe integration of civil UAS into the NAS.               9/30/2015               Deadline in future. FAA officials stated that, by this date, they plan to have the test sites operational, issue
                                                                                                     the small UAS rule, and approve a ground-based detect-and-avoid system available for certain UAS.

332b(2)        Issue final rule on integration of all UAS into the NAS.      12/14/2015              Deadline in future.



334b           Develop and implement operational and certification           12/31/2015              Deadline in future.
               requirements for the operation of public UAS in the NAS.

332c(1)        Termination of program for integrating UAS into the NAS at    2/14/2017               Deadline in future.
               six test ranges.

332c(5)        Submit report of findings and conclusions concerning          5/15/2017               Deadline in future.
               projects from six test ranges.


   - Provision Implemented and Statutory Deadline Met

   - Provision Implemented but Missed Statutory Deadline
   - Provision Not Implemented and Statutory Deadline Missed

  - Deadline in Future                                                                                                                                                                                             17
